Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Modesto Police DepartmentModesto, California

Report No. GR-90-03-006


February 2003
Office of the Inspector General
Note:   On September 30, 2002, the General Counsel of the Office of the Inspector General (OIG) advised the OIG Audit Division that 42 U.S.C. § 3796dd-2 limited the term of an Office of Community Oriented Policing (COPS) grant for the hiring of law enforcement officers to five years and the term of a grant for other purposes to three years; this opinion considered any grant renewal or extension periods to be included in the term limitations.  As a result, grant periods with terms that exceeded those in statute were considered to be in violation by the OIG and were addressed accordingly in our audit reports.  However, the OIG General Counsel, on June 13, 2003, rescinded his earlier opinion and now believes that the use of a "no-cost" grant period extension, in and of itself, is not inconsistent with the above statute reference.  As a result, findings developed solely because of this issue, if any, are no longer viewed as a violation of statute and the associated recommendation has been closed with no further action required by the entity audited or the COPS Office.
[This note added on 7/21/2003]


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Modesto Police Department (MPD).  The purpose of the grants is to enhance community policing.  The MPD was awarded $2,167,682 to hire 16 new police officers and redeploy the equivalent of    12 existing full-time police officers to community policing.
We reviewed the MPD's compliance with seven essential grant conditions and found no weaknesses in:  budgeting for local officer positions, hiring of additional officers, source of local match, reimbursement requests, and retention of officer positions.  However, we found deficiencies in the local match of grant funds, officer redeployment, and community policing activities.  As a result of the conditions identified below, we question $206,355 in grant funds received.1

The MPD did not provide the appropriate amount of local match funds for the Universal Hiring Program Grants that resulted in the MPD receiving excess reimbursement.
The MORE 98 grant has exceeded the three-year limit set by statute.
The technology and equipment authorized under the MORE 98 grant were not fully implemented and operational as of August 23, 2002.
There has been no redeployment of officer full-time equivalent positions into community policing activities as a result of the MORE 98 grant.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  See Appendix III for a breakdown and definition of questioned costs.